TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Like-Kind Exchanges Require Oversight to
                        Ensure Taxpayer Compliance



                                      September 17, 2007

                              Reference Number: 2007-30-172




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 17, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Like-Kind Exchanges Require Oversight to
                                Ensure Taxpayer Compliance (Audit # 200730003)

 This report presents the results of our review to evaluate the Internal Revenue Service’s (IRS)
 oversight of the deferment of capital gains tax through like-kind exchanges.1 We also
 determined whether taxpayers’ use of this investment strategy is growing and whether this poses
 any specific problems for the IRS. This audit was conducted as a discretionary review as part of
 our annual audit coverage.

 Impact on the Taxpayer
 The practice of deferring capital gains tax through like-kind exchanges is increasing in
 popularity. However, if taxpayers do not specifically follow the rules for like-kind exchanges,
 they could be held liable for taxes, penalties, and interest on their transactions. Therefore, it is
 important for the IRS to provide specific and consistent guidance to taxpayers on this provision
 of the tax law.

 Synopsis
 Under normal circumstances, when a taxpayer sells a business or investment property, tax must
 be paid on the gain. A like-kind exchange allows an exception to payment of the capital gains
 tax. When taxpayers sell businesses or investment real estate and replace them with different
 businesses or investment properties using an exchange, they can defer payment of the capital

 1
     Also referred to as an Internal Revenue Code Section 1031 Tax Deferred Exchange.
                     Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                           Compliance



noncompliance that is a promising target for additional research to improve reporting
compliance. We agree with the GAO that this area poses risks that need to be addressed.

Recommendations
Based on the increase in the use of like-kind exchanges to defer capital gains tax, the dollar
amounts deferred, and concerns expressed by IRS staff and the GAO, we recommended the
Director, Research, Small Business/Self-Employed Division, conduct a study of
issue-related returns selected by the National Research Program.4 At the conclusion of the study,
the Research function would recommend to the Small Business/Self-Employed Division
Examination function what particular data should be captured in future National Research
Programs in order to ensure appropriate IRS oversight of taxpayer compliance with tax laws
pertaining to like-kind exchanges. We also recommended the Commissioner, Wage and
Investment Division, update some current guidance regarding the use of Form 8824 and provide
additional guidance to taxpayers regarding the rules and regulations governing like-kind
exchanges of second and vacation homes that were not used exclusively by owners.

Response
IRS management agreed with all of the recommendations. The IRS will conduct a research
study of reporting and compliance issues associated with like-kind exchanges and share the
results with the appropriate function. In addition, the IRS agreed to revise instructions for
certain tax forms; update the information available on IRS.gov; and provide additional guidance
on like-kind exchanges to taxpayers, practitioners, and stakeholders. Management’s complete
response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




4
 The National Research Program is a comprehensive effort by the IRS to measure payment, filing, and reporting
compliance for different types of taxes and various sets of taxpayers.
                                                                                                                3
                         Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                               Compliance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Like-Kind Exchanges Require Oversight to Ensure Taxpayers Are
          Complying With Tax Laws...........................................................................Page 2
                    Recommendation 1:..........................................................Page 3

          Taxpayers Should Be Given Consistent and Adequate Guidance on
          Like-Kind Exchange Filing Requirements ...................................................Page 3
                    Recommendation 2:..........................................................Page 5

          The Rules and Regulations for Like-Kind Exchanges of Second and
          Vacation Homes May Be Unclear to Taxpayers...........................................Page 6
                    Recommendation 3:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
         Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                               Compliance




                      Abbreviations

GAO             Government Accountability Office
I.R.C.          Internal Revenue Code
IRS             Internal Revenue Service
SB/SE           Small Business/Self-Employed
                      Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                            Compliance




                                            Background

Under normal circumstances, when a taxpayer sells a business or investment property, tax must
be paid on the gain for the tax year of the sale. A like-kind exchange1 allows an exception to
payment of the capital gains tax. When taxpayers sell businesses or investment real estate and
replace them with different businesses or investment properties using an exchange, they can
defer payment of the capital gains tax normally required on these sales. As long as a property
used for business or investment is replaced with a similar property, no gain or loss is recognized
at that time; rather, it is deferred until the eventual sale of the replacement property.
Taxpayers who take advantage of like-kind exchanges increase their purchasing power, as well
as their financing and leverage capabilities, because payment of Federal tax on the gains is
deferred. Taxpayers can use exchanges to acquire replacement properties with greater income
potential (e.g., raw land can be exchanged for income-producing property and qualify as a
like-kind exchange). With additional equity to reinvest, taxpayers can execute exchange after
exchange to create a pyramiding effect. The tax liability may be forgiven upon the death of the
investor because the heirs may qualify for a stepped-up basis on the inherited property.
Taxpayers must report a like-kind exchange to the Internal Revenue Service (IRS) on
Like-Kind Exchanges (Form 8824), which is filed with their tax returns for the year during
which the exchange took place. If taxpayers do not specifically follow the rules for like-kind
exchanges, they could be held liable for taxes, penalties, and interest on their transactions. The
IRS Office of Research, Analysis, and Statistics reported that in Tax Year 2004 taxpayers2 filed
more than 338,500 Forms 8824 claiming deferred gains (or losses) of more than $73.6 billion.3
While this represents a doubling of the number of like-kind exchanges reported in 1998, the total
dollar amounts deferred more than tripled.
This review was performed at the IRS office in Holtsville, New York. We discussed policy and
procedures with IRS personnel from the Office of Chief Counsel; the Office of Research,
Analysis, and Statistics; and the Submission Processing, Examination, and Compliance functions
within the Small Business/Self-Employed (SB/SE), Large and Mid-Size Business, and Wage and
Investment Divisions in Lanham, Maryland, and Washington, D.C. The audit was conducted
from November 2006 through May 2007 in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.


1
  Also referred to as an Internal Revenue Code (I.R.C.) Section 1031 Tax Deferred Exchange.
2
  Individuals, partnerships, and corporations.
3
  In Tax Year 2004, individual taxpayers filed 219,675 Forms 8824 deferring $28.7 billion, partnerships filed
47,928 Forms 8824 deferring $25.9 billion, and corporations filed 70,963 Forms 8824 deferring $19.1 billion.
                                                                                                            Page 1
                     Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                           Compliance



taxpayers filing approximately 65 percent of Forms 8824 in 2004 and accounting for 39 percent
of the gains (or losses) deferred.

The Government Accountability Office also identified risks
In a recent report, the Government Accountability Office (GAO)7 stated that, in reviewing
securities reporting compliance, it found taxpayers had misreported “capital gains for other
assets,” including residential rental property, business personal property, and real estate. The
report identified “capital gains for assets other than securities” as an area of individual taxpayer
noncompliance that is a promising target for additional research to improve reporting
compliance. We agree with the GAO this area poses risks that need to be addressed.

Recommendation
Recommendation 1: Based on the increase in the use of like-kind exchanges to defer capital
gains tax, the dollar amounts deferred on Forms 8824, and the numerous concerns expressed by
IRS staff and the GAO, the Director, Research, SB/SE Division, should conduct a study of
issue-related returns selected by the National Research Program.8 At the conclusion of the study,
the Research function would recommend to the SB/SE Division Examination function what
particular data should be captured in future National Research Programs in order to ensure
appropriate IRS oversight of taxpayer compliance with tax laws pertaining to like-kind
exchanges.
        Management’s Response: IRS management agreed with the recommendation.
        Management will conduct a research study of reporting and compliance issues associated
        with like-kind exchanges based on the issue-related returns selected by the National
        Research Program. The results will be shared with the office planning future National
        Research Program studies.

Taxpayers Should Be Given Consistent and Adequate Guidance on
Like-Kind Exchange Filing Requirements
Some of the IRS guidance provided to taxpayers who sell real estate lacks adequate information
about like-kind exchange filing requirements. While the Internal Revenue Code (I.R.C.) is not
explicit with respect to the requirement to file Form 8824 per se, and there are usually no
penalties imposed if a taxpayer does not file the Form, some sections of the I.R.C. provide the
IRS with the legal authority to require the filing of Form 8824. Also, some IRS forms,


7
  “Using Data from the Internal Revenue Service’s National Research Program to Identify Potential Opportunities to
Reduce the Tax Gap,” (GAO-07-423R, dated March 15, 2007).
8
  The National Research Program is a comprehensive effort by the IRS to measure payment, filing, and reporting
compliance for different types of taxes and various sets of taxpayers.
                                                                                                          Page 3
                   Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                         Compliance



instructions, and publications provide taxpayers proper guidance with respect to a like-kind
exchange and the requirement to file a Form 8824. However, other IRS guidance needs revision
to provide consistent and adequate information to taxpayers engaging in like-kind exchanges, to
help meet the IRS mission (provide America’s taxpayers with top-quality service by helping
them understand and meet their tax responsibilities and by applying the lax law with integrity
and fairness to all).

The I.R.C. is not explicit
The Office of Chief Counsel stated “there is no explicit requirement in the I.R.C. Section 1031,
or the regulations there under, that a taxpayer who was a participant in a like-kind exchange file
a Form 8824.” However, the Office of Chief Counsel, as well as SB/SE Division Examination
staff, pointed out that I.R.C. Sections 6011 and 6012 provide the IRS with the legal authority to
require taxpayers involved in like-kind exchanges to file Forms 8824. Without mentioning
forms specifically, these sections of the I.R.C. specify the persons required to file income tax
returns and state that every person required to file a return or statement shall include the
information required by such forms or regulations. Because the instructions for Form 8824
require the filing of the Form to allow the IRS to determine whether a taxpayer who was a
participant in a like-kind exchange complied with the applicable provisions of the I.R.C.
Section 1031 regulations, the IRS believes it has the legal authority to require a taxpayer to file a
Form 8824.

No penalty is usually imposed if a taxpayer does not file a Form 8824
Form 8824 is considered an attachment to the income tax return. It is not an information return
or a reporting document subject to any penalty. However, if a partially taxable like-kind
exchange (that was not reported and not disclosed on a Form 8824) is identified during the
course of an examination, accuracy-related penalties under the provisions of I.R.C. Section 6662
may be applicable.

Various IRS instructions need to provide additional guidance to taxpayers
participating in like-kind exchanges
The instructions for Sales of Business Property (Form 4797) and Capital Gains and Losses
(Schedule D) for the U.S. Individual Income Tax Return (Form 1040) specifically inform
taxpayers they need to use Form 8824 to report like-kind exchanges. Sales and Other
Dispositions of Assets (Publication 544) states under the section entitled “Nontaxable
Exchanges” that taxpayers are to “report the exchange of like-kind property, even though no gain
or loss is recognized, on Form 8824. . . and, if you have any recognized gain because you
received money or unlike property, report it on Schedule D (Form 1040) or Form 4797
whichever applies.”



                                                                                              Page 4
                        Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                              Compliance



However, the IRS web site (IRS.gov) Section 11.4-Frequently Asked Questions, Sale or Trade of
Business, Depreciation, Rentals, Sales, Trades, Exchanges, does not include Form 8824 as one of
the necessary forms to fill out. Rather, it makes reference to Form 8824 and like-kind exchanges
in a different Section entitled “Like-Kind Exchanges-Real Estate Tips.”
Copy B of Proceeds From Real Estate Transactions (Form 1099-S) is sent to taxpayers upon
sales or exchanges of real estate. The “Instructions for Transferor” appear on the back of
Copy B and state, “If the real estate was not your main home, report the transaction on
Form 4797, Sales of Business Property, Form 6252, Installment Sale Income, and/or Schedule D
(Form 1040).” However, there are no instructions that inform taxpayers they may be required to
file a Form 8824 if a like-kind exchange was involved.
In addition, Your Federal Income Tax (Publication 17) informs taxpayers, “If you sold or traded
reportable real estate, you generally should receive from the real estate reporting person a
Form 1099-S showing the gross proceeds from the sale or exchange. Follow the instructions for
Schedule D to report these transactions.” It is not clear that taxpayers need to use a Form 8824
to report a like-kind exchange.9
Consistent and adequate guidance, provided in part by Form 8824 and its instructions, helps
ensure taxpayers are in compliance with tax laws covering like-kind exchanges. Also,
information from Forms 8824 may help the IRS to accurately determine taxpayers’ tax liabilities
and make determinations concerning taxpayers’ figures on the basis in replacement property or
depreciation. Inadequate guidance may increase taxpayer burden and noncompliance with tax
laws.

Recommendation
Recommendation 2: To ensure taxpayers are given adequate and consistent guidance with
respect to like-kind exchange filing requirements, the Commissioner, Wage and Investment
Division, should:
       a. Revise IRS.gov Section 11.4-Frequently Asked Questions, Sale or Trade of Business,
          Depreciation, Rentals, Sales, Trades, and Exchanges, to include Form 8824 in the list of
          forms taxpayers may be required to file.
       b. Add a sentence to the “Instructions for Transferor” on the back of Form 1099-S
          (Copy B), directing participants in like-kind exchanges to file Forms 8824.
       c. Update Publication 17 to refer taxpayers to the instructions for Form 8824 in addition to
          its current reference to Schedule D instructions.



9
    Form 8824 is referred to on some pages in Publication 17 but not in the Section referred to above.
                                                                                                         Page 5
                        Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                              Compliance



           Management’s Response: IRS management agreed with this recommendation.
           Management submitted a request for change to the Office of Chief Counsel to include
           Form 8824 information in the Frequently Asked Questions. The Office of Chief Counsel
           has included this information in the 2008 IRS.gov Frequently Asked Questions (to be
           posted by January 1, 2008). Management agreed to add a sentence to Form 1099-S
           (Copy B) directing participants in like-kind exchanges to file Form 8824 and to update
           Publication 17 to refer taxpayers to the instructions for Form 8824, in addition to its
           current reference to Schedule D instructions.

The Rules and Regulations for Like-Kind Exchanges of Second and
Vacation Homes May Be Unclear to Taxpayers
The Office of Chief Counsel stated that when a second or vacation home is used exclusively by
the owner (related parties) I.R.C. Section 1031 like-kind exchange treatment is not available.
However, the IRS rules and regulations for like-kind exchanges of second and vacation homes
that were not used exclusively by the owners, or where there is some rental history or attempts
by the taxpayers to rent the properties, are complex and little exists with respect to a published
position by the IRS on like-kind exchanges involving such properties.
In our opinion, the absence of clarification on this issue leaves unrebutted the sales pitch of
like-kind exchange promoters who may encourage taxpayers to improperly claim deferral of
capital gains tax by selling non-qualifying second and vacation homes through “tax-free”
exchanges.10
Many of these promoters advertise their services on the Internet and in various news
publications. In addition, some promoters hold free seminars during which they inform
taxpayers that second and vacation homes can be sold tax free using like-kind exchanges.
Advice given to taxpayers includes how like-kind exchanges can be used to sell not only second




10
     Many promoters of like-kind exchanges refer to them as “tax-free” exchanges not “tax-deferred” exchanges.




                                                                                                            Page 6
                       Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                             Compliance



and vacation homes, including those never rented,11 but also primary residences for which
traditional sales would result in appreciation above the tax-free amounts12 provided by law.13
Over the last few years, the concept and reality of “flipping” property throughout many parts of
the country made like-kind exchanges popular with real estate speculators. Some people may
not understand the IRS rules governing such exchanges and may trust the advice of realtors who
may not be well versed in tax law. In some instances, amateurs buy and sell properties too
quickly, running the risk that the IRS may deem the transactions a person’s trade or business
with the gains taxed as ordinary income and subject to self-employment taxes. In other
instances, taxpayers may take possession of the cash proceeds of the sales, in contradiction to
IRS rules requiring that the money be placed in escrow or held by qualified intermediaries until
the replacement properties are acquired.14
The real estate market has undergone a downturn and home prices have declined in many areas.
This may serve to discourage taxpayers from investing in real estate. However, other taxpayers
may see this as an opportunity to invest in second and vacation homes at reasonable prices.
Given the lack of regulations, statutes, and court cases providing a definitive answer on the
subject of like-kind exchanges with respect to second and vacation homes not used exclusively
by owners, taxpayers and promoters may mistakenly take the position that any transaction not
specifically prohibited by IRS guidance would be entitled to like-kind exchange treatment.
While the absence of guidance may be a more effective deterrent to abuse than publication of
guidance, in this case, unscrupulous or uninformed promoters are already taking advantage of the
IRS’ silence. For example, one promoter advised that taxpayers could sell their vacation homes
using like-kind exchanges even though the homes were never rented. The promoter indicated
“attempts” to rent vacation homes could qualify these properties for like-kind exchanges and


11
   The Office of Chief Counsel stated there are other factors that need to be considered (e.g., the taxpayer’s treatment
of mortgage interest on the property). The fact that property was purchased with the expectation it would appreciate
is not sufficient to qualify the property for a like-kind exchange because most real property is purchased with the
expectation that it will appreciate. The fact that the property is not rented is not indicative the taxpayer does not use
the property for personal use.
12
   Under I.R.C. Section 121, the standard amount of tax-free capital gains allowed on primary residences is
$250,000 for taxpayers who file as Single or Married Filing Separately and $500,000 for taxpayers who file as
Married Filing Jointly.
13
   Rev. Rul. 59-229, 1959-2 C.B. 180, is the closest thing the IRS has to a published position on I.R.C. Section 1031,
exchange of a residence. This Revenue Ruling considers the tax treatment of residences (with mortgages thereon)
exchanged with farm properties. It indicates that, if the residences are occupied by tenants acting, for example, in
the capacity of caretakers or farm workers for the taxpayers, the exchange is treated under I.R.C. Section 1031(a) as
“property used in trade or business” in the same manner as the exchange of the farm lands and buildings. However,
when the dwellings are used as personal residences by the taxpayers who are parties to the exchange, an exchange
thereof is treated as a separate transaction. Any resulting gain is subject to the provisions pertaining to the sale or
exchange of a residence.
14
   If taxpayers take possession of the cash, they are disallowed the tax advantages of the like-kind exchange
provisions.
                                                                                                                Page 7
                  Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                        Compliance



attempts could consist of placing rental advertisements in distant cities. More taxpayers may
take the advice of these promoters if the IRS fails to provide adequate guidance.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should provide
additional guidance to taxpayers regarding the rules and regulations governing like-kind
exchanges with respect to second and vacation homes that were not used exclusively by owners.
       Management’s Response: IRS management agreed with this recommendation.
       SB/SE Division Counsel has submitted a request for published guidance about like-kind
       exchanges with respect to second and vacation homes which are not used exclusively by
       the owner. Management will also provide a Tax Gap Fact Sheet to stakeholders and
       practitioners about the filing requirements for Form 8824. In addition, outreach will
       caution taxpayers to be wary of individuals promoting improper use of like-kind
       exchanges.




                                                                                          Page 8
                  Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                        Compliance



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the IRS’ oversight of the deferment of capital
gains tax through like-kind exchanges. As part of this review, we also determined whether
taxpayers’ use of this investment strategy is growing and whether this poses any specific
problems for the IRS. To accomplish this objective, we:
I.     Performed a risk assessment to identify any internal control weaknesses that needed to be
       included in our audit tests.
II.    Gathered and reviewed information on the IRS’ collection and processing of data from
       Like-Kind Exchanges (Form 8824). We obtained the information from IRS management
       and staff and any findings and recommendations made in prior reviews that involved
       like-kind exchanges.
       A. Identified the numbers and dollars involved in such transactions for the latest years
          available to identify the growth in transactions.
       B. Contacted the IRS Office of Research, Analysis, and Statistics to obtain any current
          or historical data collected on Forms 8824.
III.   Identified the information collected from Forms 8824 by the IRS and the purpose of
       collecting such data.
       A. Obtained information from IRS management and staff regarding the purpose and use
          of information collected from taxpayers’ Forms 8824.
       B. Determined how the IRS tracks the deferment of capital gains tax due to like-kind
          exchanges and ensures taxpayers are complying with tax laws.
       C. Determined how the IRS identifies noncompliance and ensures all taxpayers that
          should be filing Forms 8824 are doing so.
IV.    Researched IRS, GAO, and Treasury Inspector General for Tax Administration reports to
       identify any findings/recommendations made with respect to like-kind exchanges.
       A. Determined whether the IRS has conducted or plans to conduct any research projects
          in the area of the deferment of capital gains tax through like-kind exchanges.
       B. Obtained information from IRS management and staff regarding past, current, or
          future projects in this area.



                                                                                            Page 9
          Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                Compliance



C. Contacted IRS management and staff to identify any concerns regarding like-kind
   exchanges.
D. Gathered and reviewed information on recent changes to or pending legislation
   affecting the tax laws concerning like-kind exchanges.




                                                                               Page 10
                  Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                        Compliance



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Kathleen A. McFadden, Lead Auditor
Paul R. Baker, Senior Auditor
Nancy Van Houten, Management Auditor




                                                                                        Page 11
                 Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                                       Compliance



                                                                       Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                             Page 12
       Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                             Compliance



                                               Appendix IV

Management’s Response to the Draft Report




                                                      Page 13
Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                      Compliance




                                               Page 14
Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                      Compliance




                                               Page 15
Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                      Compliance




                                               Page 16
